Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

87596

Haward Daniels being duly sworn. deposes and says that deponent is
That

AFFIDAVIT OF SERVICE

party

the action. and is aver 18 years

age.

the 26th day

July 2021 deponent served 3 copies the within
PETITION FDR WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Chad R. Bowman
Ballard Spahr LLP
KStreet. NW. 12th
Washington. District Columbia

Attorneys for Respondents

I. Haward Daniels. declare under penalty

correct. executed

July 26.

perjury under the laws the United States America that the foregoing is true and
pursuant Supreme Court Rule 29.5(c). All parties required be served, have been served.

~~{/)~Haward Daniels

Sworn to me this

July 26.
Jasmine Williams
Notary Public. State New Yark
llualified in llueens County
Expires September 16.

Case Name: Christiana Tah v. Global Witness Publishing

